 

 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No, 20-1134

John Myers y, Ron Neal, Supt, Indiana State Prison

(Petitioner) (Respondent)
1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

1 certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

snare — Staten Ff. Crea sony /cxf
Date: March 10, Z02/

Stephen R. Creason
Oy. OMs. OM. Miss

Firm Office of the Attorney General

 

 

 

(Type or print) Name

‘Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor

City & State Indianapolis, IN Zip 46204
Phone 317-232-6222

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Clifford Warren Berlow
